/?; It

t‘<

SOUTH CAROLINA DEPARTMENT OF CORRECTIONS
INMATE GRIEVANCE FORM
STEP 1
nm ATE

AUGjU lM

NAME:\Afeum- VWrio^:

L->

SCDC NUMBER:
INSTITUTION:

|_(hl

"F*V\5k aIo rM'v
k)A
WORK ASSIGNMENT:

HOUSING UNIT:

OFFICE USE ONLY
Grievance No._
Code: General
7
Policy_
Disc. Hear.
Class..
PREA
/ /
Date Received wTK.
IGC Initials 0 7

STATEMENT OF GRIEVANCE (Indicate the date of incident, and if the grievance is a challenge w SCDC PoUcy^specify

ny

Py 0>a.S&cP:

0A. 4Wit

ikft. 27^~ cby sm

■5ua«l,2M
It t<\f>pda^,-U

So*~tKVR_

J^Oi '-t-

Oa 3~ 2-1,2°,S X
Vicu^. Ql&A,

CsMtf\y cio'ief Ju&Um. Bcj-Uj 4^^
.

Hit Supr^t Cs^ e>?

a njo 1,01-

»

of apff&l fcO?<0—

/

VL4L tt% * AVU.rvpU-U £k

Cau-oOf^
0-}.-cra.'Zo>%

. prOf^i C<o- 13 —

ob-a»-^

Y '-^L-Vt ■WSJfcr^' st^f ovA- +*-«>

ent
c-rvo \fc •fVjt. fwvcil roo**

«* fak ^4. «*,**.*» <^ ^ -p tuuu^ *
TAlcjAU^t

T1 W*^t

r<i£jt'

<W*d* ,a Uc

pk7^ irf>

*f

”

^^

OaA ^ cA\\ b» QW^

ACTION REQUESTED:
§>uaV '.oUr-W^ WAV

--------- y

'

^ &*£**- AtW>,Um 10-Hfe-nV um ,U -M<y-j

fiy*,Ubflr

0,^4 ievLOM* ~£ Uo^tUo

-O^ ^

oil «Ji J*n«r by h~« tU^pr. ^f1^-

ACTION TAKEN BY IGC: 0 PROCESSED

□ UNPROCESSED

OTHER

6tuf(r^ faf***- (M-— i^/£ *
y/4/fe
IGC Signature
(CONTINUE ON REVERSE SIDE)
SCDC 10-5 (Rev. October 2013)

Date

WARDEN'S DECISION AND REASON:
BRCI-0593-18
i

You have exceeded all time frames for filing a grievance on this issue. Per Policy GA-01.12 Inmate
Grievance System, you had (8) days from date if incident to file grievance. In your grievance you stated
that the incident occur in the month of May, 2018. You didn’t file a grievance until 0.7/28/18. Therefore,
this grievance is returned unprocessed.
%/ f/fZ P'rf-

f.

• /Warden Signature
□

Taccept the Warden's decision and consider the matter closed,

a

Date.

>■'.

I do not accept the Warden's decision and wish to appeal.

Grievant Signature

Date ..

v

IGC Signature

Date

INSTRUCTIONS FOR COMPLETING STEP 1 GRIEVANCE FORM
1.

2.
3.

An informal resolution shall be attempted prior to the filing of Step 1 bv sending an Inmate Request to Staff
Member (RTSM) form or Kiosk reference number to the appropriate supervisor. A copy of the answered
RTSM must be attached to the grievance when the grievance is filed.
Complete each section in its entirety writing only in the space provided for inmate use. No additional pages
will be permitted.
Only one (1) issue is to be addressed on each form.

4.

Submit the com pleted form by placing it in the Grievance Box at your institution within eight (8) working
days of the date on the RTSM response; policy grievances can be filed at any time. Disciplinary and
Classification Review appeals must be submitted within five (5) working days of the hearing/review. Do not
write in the space provided for the Warden's response.

5.

If you are not satisfied with the Warden's decision, you may appeal to the appropriate responsible official
within five (5) days of your receipt of the Warden's decision, by placing your Step 2 appeal form in the
Grievance Box at your institution.

®J)e Supreme Court of iboutf) Carolina
Kevin E. Herriott, Petitioner,
v.
State of South Carolina, Respondent.
Appellate Case No. 2018-001122
Lower Court Case No. 2018CP1000600

ORDER
Petitioner has filed a notice of appeal from a conditional order of dismissal. The
notice of appeal is dismissed without prejudice because the order is not an
appealable order. Lewis v. State, 368 S.C. 630, 630 S.E.2d 464 (2006). The
remittitur will be sent as provided by Rule 221(b) of the South Carolina Appellate
Court Rules.

A.

<* *

C.J.

FOR THE C0ERT
Columbia, South Carolina
June 2.1,2018
cc:

. Megan Harrigan Jameson, Esquire
Mr. Kevin E. Herriott

pit

A

-<v

/

"'•ft--

p. ”2^

SOUTH ca;

.ions

^ina department of CORR1
INMATE GRIEVANCE FORM
STEP 1

INMATE NAME::

l-jtrnO'iA-

OFFICE USE ONLY
Grievance No. Lg.e P/T.rn~ia-'l<f
Code: General
/i)iL
Policy
Disc. Hear.
Class.___
PREA
Date Received f//3 JJ9

SCDC NUMBER: CSlSffG'Z,
INSTITUTION:
HOUSING UNIT:
WORK ASSIGNMENT:

aJ

(SEP 1 1 2019
CQf

IGC Initials

/

STATEMENT OF GRIEVANCE (Indicate the date of incident, and if the grievance is a challenge to SCDC Policy, specify
which policy. Include supporting documentation ancj^attach answered RTSM or Kiosk reference number.)

Gnev

H€.mr<D'(-f4 Fs

i

.

4ts> TC-VS-Ci^csL.^ a-friz. Pl&i'n*?

Prz>c.<2.<kfcS. a4-’ kft. Care

Suitk detail
S&L-h'&iS, ’2..J? a* d

a.t~o_

uJa/arkb'X &P

77U.

f/rtpan^BL

loa

£j\vo l^J’, COamJLcl U&- (Lri^ad- 'L^lr fcL(c£k. &orh-^J *a<5> P^^H

terrzsf^e*s, Ja&Jb-IU.

/b^JA^

o*Ay Lectori; -Ik

Corrt&p.-'kc&A wfcrc Ttkiti usipr&cs&S<Ljl

rvo'U. tnokftkjij-t> <s ^

Id-M ScE&Sirn. 3^r kc Gfnxz+'h &l<Jps

^

a(a) /£-//^ebcTviirAi

f°r $£-GirtejJcdr g e&h^&r

ssF ^ar*fa*\ ddibi

iv'lA cw^W AeU 46 ■*£j*ikk<lUb ** *—4 fc.
a Ms A TttsM. dfri«v'®.c«.

Ur

Z»/9

",

«fe W*.f<5<^s

(Sk-f*
Grievant Signature
ACTION REQ|J|5STE]j): ~7c. 4-^ ^-3Aoj-To^v 4~o
pcb-Wlcd.
fl/>cL-?\Ut. (DdfcyAiA t^oWo aTC rvo-f J^-kkd
>o ■Ujl ^ooejvwoM
P^€'v’V~
ACTION TAEEN BY IGC: g| PROCESSED

□ UNPROCESSED

Date

-VW-/ /w’vtMc. C^'a.G)
I
4M_ pi-oaMor*- <x*<L<s>r >op*c>//cjg_

□ OTHER

'tlUlCJU
IGC Signature

//////?
7 Date

7

(CONTINUE ON REVERSE SIDE)

1

SCDC 10-5 (Rev. October 2013)

p. 23

i

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
1100 East Main Street, Suite 501
Richmond, Virginia 23219-3517
www.ca4.uscourts.gov

June 12, 2020

NOTICE

No. 19-6646,

)

Kevin Herriott v. Aaron Joyner
6:19-CV-00626-DCN-KFM

TO: Kevin Herriott
In response to your inquiry regarding documents sent to this office and returned to
you, enclosed is a copy of the docket report.

Cathy Tyree Herb, Deputy Clerk
804-916-2724

p.2^1

Page 5 of 6

19-6646

individual and official capacity; MITCHELL, Mailroom Official, individual and official capacity;
MATA, Officer, individual and official capacity; LEVELS, Sergeant, individual and official capacity;
VELA, Lieutenant, individual and official capacity; MCCABE, Acting Warden for Kershaw,
individual and official capacity; FORD, Associate Warden, individual and official capacity; CANTY,
Associate Warden, individual and official capacity; SMITH, Major, individual and official capacity;
DAVIS, Captain, individual and official capacity; DANLEY, Lieutenant, individual and official
capacity; BLACKWELL, Sergeant, individual and official capacity; GASKINS, Officer, individual
and official capacity; BASKINS, Officer, individual and official capacity; CAMPBELL, Sergeant,
individual and official capacity; JONES, Sergeant, individual and official capacity; AMERISON,
Mailroom Official, individual and official capacity; BRAD, Food Service Director, individual and
official capacity; ROBINS, Head Nurse, individual and official capacity
Defendants

05/02/2019

1

Case docketed. Originating case number: 6:19-cv-00626-DCN-KFM. Case
manager: CathyHerb. [19-6646] CT [Entered: 05/02/2019 11:41 AM]

05/02/2019

2

ASSEMBLED ELECTRONIC RECORD docketed. Originating case number:
6:19-cv-00626-DCN-KFM. Record in folder? Yes. Record reviewed? Yes. PSR
included? N/A. [19-6646] CT [Entered: 05/02/2019 11:58 AM]

05/02/2019

3

PLRA NOTICE issued to [ Kevin Herriott ]. Fee due to District Court or PLRA
application due to Court of Appeals within 15 days. Mailed to: K. Herriott. [196646] CT [Entered: 05/02/2019 12:07 PM]

05/02/2019

4

INFORMAL BRIEFING ORDER filed. Mailed to: M. Herriott. Informal Opening
Brief due 05/28/2019. Informal response brief, if any: 14 days after informal
opening brief served. [19-6646] CT [Entered: 05/02/2019 12:10 PM]

05/22/2019

5

PLRA-APPLICATION (court access only) by Kevin Herriott. Consent to Payment
Form: Yes; Trust Account Statement: No. [19-6646] CT [Entered: 05/23/2019
01:29 PM]

05/22/2019

6

INFORMAL OPENING BRIEF by Kevin Herriott. [19-6646] CT [Entered:
05/23/2019 01:31 PM]

05/23/2019

7

ORDER filed [1000518218] granting Motion for leave to proceed PLRA [5] Fee
Amount: $505.00. Name and Prisoner Number: Kevin Herriott, #313862. Copies
to all parties. Mailed to: K. Herriott. [19-6646] CT [Entered: 05/23/2019 01:35
PM]

07/19/2019

8

UNPUBLISHED PER CURIAM OPINION filed. Originating case number: 6:19cv-00626-DCN-KFM. Copies to all parties and the district court. [1000550430].
Mailed to: Kevin Herriott. [19-6646] TW [Entered: 07/19/2019 09:18 AM]

07/19/2019

9 JUDGMENT ORDER filed. Decision: Dismissed. Originating case number: 6:19~ cv-00626-DCN-KFM. Entered on Docket Date: 07/19/2019. [1000550431] Copies
to all parties and the district court. Mailed to: Kevin Herriott. [19-6646] TW
[Entered: 07/19/2019 09:19 AM]

08/12/2019

10

Mandate issued. Referencing: [9] Judgment order, [8] unpublished per curiam
Opinion. Originating case number: 6:19-cv-00626-DCN-KFM. Mailed to: K.
Herriott. [19-6646] CT [Entered: 08/12/2019 09:23 AM]

p.ZS
https://ca4-ecf.sso.dcn/cmecf/servlet/DktRpt?caseNum=T9-6646&dateFrom=&dateTo=&... 06/12/2020

i

19-6646

Page 6 of 6

09/16/2019 JJ_ DOCUMENT referencing [9] Judgment order , [8] unpublished per curiam
Opinion by Kevin Herriott. [1000589623] [19-6646] CT [Entered: 09/17/2019
05:12 PM]
09/17/2019 _12_ NOTICE ISSUED re: document received in error re:[l 11 document (petition for
writ of cert). Returned to: appellant. Mailed to: K. Herriott. [19-6646] CT
[Entered: 09/17/2019 05:14 PM]

https://ca4-ecf.sso.dcn/cmecf/servlet/DktRpt?caseNum=T9-6646&dateFrom=&dateTo=&... 06/12/2020

I

a
j,

i

i

i

-j

(

p.Zlr

V

U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 9/19/2019 at 10:39 AM EDT and filed on 9/19/2019
Case Name: Herriott v. Joyner et al
Case Number: 6:19-cv-00626-DCN-KFM
Filer:
Document Number: 65

Docket Text:
ORDER affirming [57] Report and Recommendation. Details set forth in order. Signed by
Honorable David C Norton on 9/19/2019.(eric,)
6:19-cv-00626-DCN-KFM Notice has been electronically mailed to:
6:19-cv-00626-DCN-KFM Notice will not be electronically mailed to:
Kevin Herriott 313862
Lee Correctional Institution
F7-77
990 Wisacky Highway
Bishopville, SC 29010
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1091130295 [Date=9/19/2019] [FileNumber=9267716-0
] [44104eeca4ffc07451250dfd035327511e53baldbaad008b42c9b7a00632af4b62e
adl25e41 Icdaaddd92716669b8bdac47b3189ef2edel408e547b87c458ale]]

p.zf6)

U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 7/13/2020 at 2:57 PM EDT and filed on 7/13/2020
Case Name: Herriott v. Joyner et al
Case Number: 6:19-cv-00626-DCN
Filer:
Document Number: 153

Docket Text:
ORDER RULING ON REPORT AND RECOMMENDATION for [134] Motion for Sanctions,,
Motion to Strike, filed by Kevin Herriott, [147] Report and Recommendation, [140] Report and
Recommendation, [127] Motion for Summary Judgment,, filed by NFN Greene, Aaron Joyner,
NFN Tisdale, NFN Commander, NFN Ray, [132] Motion for Default Judgment, filed by Kevin
Herriott. The court ADOPTS the R&Rs, DENIES Herriott's motions, and GRANTS defendants'
motion for summary judgment. Signed by Honorable David C Norton on 7/13/2020. (jbry, )
6:19-cv-00626-DCN Notice has been electronically mailed to:
Andrew F Lindemann

andrew@ldh-law.com, jennifer@ldh-law.com

6:19-cv-00626-DCN Notice will not be electronically mailed to:
Kevin Herriott 313862
Kirkland Correctional Institution
57-RHU
4344 Broad River Road
Columbia, SC 29210
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1091130295 [Date=7/13/2020] [FileNumber=9708451-0
][a2e6e36842a0e747eb365385492a53ec69e8d21c369a5c42ea85d4e782c76a62081
f31 e4b40af5 9ad4dd9d6ad23 5 abe93 f193 a42e4d4bffd091 bde293 a66baae] ]

P-

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-7098
KEVIN HERRIOTT,
Plaintiff - Appellant,
v.
AARON JOYNER, Individual and official capacity; MR. TISDALE, Associate
Warden for security, Individual and official capacity; MAJOR RAY, Major for
Security, individual and official capacity; LT. COMMANDER, Captain, individual
and official capacity; OFFICER GREENE, Lieutenant, individual and official
capacity,
Defendants - Appellees,
and
ALFAS, Officer, individual and official capacity; OFFICER MINOR, Officer,
individual and official capacity; COXUM, Sergeant, individual and official capacity;
GREGG; MICHAEL STEPHEN, Warden for Broad River, individual and official
capacity; JOHN DOE, Associate Warden for Security, individual and official
capacity; MAJOR PARRISH, Major, individual and official capacity; CPT
CARTER, Captain, individual and official capacity; WILL, Lieutenant, individual
and official capacity; OFFICER DUNN, Officer, individual and official capacity;
MALNADO, Officer, individual and official capacity; MR. MITCHELL, Mailroom
Official, individual and official capacity; MATA, Officer, individual and official
capacity; LEVELS, Sergeant, individual and official capacity; VELA, Lieutenant,
individual and official capacity; ASSOCIATE WARDEN MCCABE, Acting
Warden for Kershaw, individual and official capacity; FORD, Associate Warden,
individual and official capacity; OFFICER CANTY, Associate Warden, individual
and official capacity; MAJOR SMITH, Major, individual and official capacity;
CAPTAIN DAVIS, Captain, individual and official capacity; DANLEY, Lieutenant,
individual and official capacity; SERGEANT BLACKWELL, Sergeant, individual
and official capacity; LIEUTENANT GASKINS, Officer, individual and official
capacity; BASKINS, Officer, individual and official capacity; SERGEANT

7

CAMPBELL, Sergeant, individual and official capacity; JONES, Sergeant,
individual and official capacity; AMERISON, Mailroom Official, individual and
official capacity; BRAD, Food Service Director, individual and official capacity;
ROBINS, Head Nurse, individual and official capacity; SHARPE, Associate
Warden, Individual and official capacity; JOHN DOE 1; JOHN DOE 2,
Defendants.

Appeal from the United States District Court for the District of South Carolina, at
Greenville. David C. Norton, District Judge. (6:19-cv-00626-DCN)
Submitted: November 19, 2020

Decided: November 24, 2020

Before WILKINSON, KING, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Kevin Herriott, Appellant Pro Se. Andrew Lindemann, LINDEMANN, DAVIS &
HUGHES, PA, Columbia, South Carolina, for Appellees.
Unpublished opinions are not binding precedent in this circuit.

2
(,129

FILED: December 16, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7098
(6:19-cv-00626-DCN)

KEVIN HERRIOTT
Plaintiff - Appellant
v.
AARON JOYNER, Individual and official capacity; MR. TISDALE, Associate
Warden for security, Individual and official capacity; MAJOR RAY, Major for
Security, individual and official capacity; LT. COMMANDER, Captain,
individual and official capacity; OFFICER GREENE, Lieutenant, individual and
official capacity
Defendants - Appellees
and
ALFAS, Officer, individual and official capacity; OFFICER MINOR, Officer,
individual and official capacity ; COXUM, Sergeant, individual and official
capacity; GREGG; MICHAEL STEPHEN, Warden for Broad River, individual
and official capacity; JOHN DOE, Associate Warden for Security, individual and
official capacity; MAJOR PARRISH, Major, individual and official capacity;
CPT CARTER, Captain, individual and official capacity; WILL, Lieutenant,
individual and official capacity; OFFICER DUNN, Officer, individual and official
capacity; MALNADO, Officer, individual and official capacity; MR.
MITCHELL, Mailroom Official, individual and official capacity; MATA, Officer,
individual and official capacity; LEVELS, Sergeant, individual and official
capacity; VELA, Lieutenant, individual and official capacity; ASSOCIATE
WARDEN MCCABE, Acting Warden for Kershaw, individual and official

pSo

capacity; FORD, Associate Warden, individual and official capacity; OFFICER
CANTY, Associate Warden, individual and official capacity; MAJOR SMITH,
Major, individual and official capacity; CAPTAIN DAVIS, Captain, individual
and official capacity; DANLEY, Lieutenant, individual and official capacity;
SERGEANT BLACKWELL, Sergeant, individual and official capacity;
LIEUTENANT GASKINS, Officer, individual and official capacity; BASKINS,
Officer, individual and official capacity; SERGEANT CAMPBELL* Sergeant,
individual and official capacity; JONES, Sergeant, individual and official
capacity; AMERISON, Mailroom Official, individual and official capacity;
BRAD, Food Service Director, individual and official capacity; ROBINS, Head
Nurse, individual and official capacity; SHARPE, Associate Warden, Individual
and official capacity; JOHN DOE 1; JOHN DOE 2
Defendants

MANDATE
The judgment of this court, entered , takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
/s/Patricia S. Connor, Clerk

p*31

*!
I

'J'

■■A

PER CURIAM:
Kevin Herriott appeals the district court’s order accepting the magistrate judge’s
recommendation and granting summary judgment to Defendants on Herriott’s 42 U.S.C.
§ 1983 complaint. On appeal, we confine our review to the issues raised in the informal
brief. See 4th Cir. R. 34(b). Because Herriott’s informal brief does not challenge the basis
for the district court’s disposition, Herriott has forfeited appellate review of the court’s

r

order. See Jackson v. Lightsey, 775 F.3d 170, 177 (4th Cir. 2014) (“The informal brief is
an important document; under Fourth Circuit rules, our review is limited to issues
preserved in that brief.”). In addition, we reject Herriott’s contention that the district court
lacked subject matter jurisdiction.
Accordingly, we affirm the district court’s judgment.

We dispense with oral

argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED

3

P.3 Z.

6:19-cv-00626-DCN

Date Filed 07/13/20

Entry Number 153

Page lot8

*

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
KEVIN HERRIOTT,
Plaintiff,
vs.

)
)
)
)
)
)

No. 6:19-cv-00626-DCN
ORDER

AARON JOYNER, NFN TISDALE, NFN )
RAY, NFN COMMANDER, and NFN
)
GREENE,
)
Defendants.

)
)

This matter is before the court on United States Magistrate Judge Kevin
McDonald’s report and recommendation (“R&R”) recommending that the court deny
plaintiff Kevin Herriott’s (“Herriott”) motion for default judgment, request for entry of
default, and motion for sanctions/motion to strike defendants’ motion for summary
judgment, ECF No. 140, and Magistrate Judge McDonald’s R&R recommending that the
court grant defendants Aaron Joyner, NFN Tisdale, NFN Ray, NFN Commander, and
NFN Greene’s (collectively, “defendants”) motion for summary judgment, ECF No. 147.
For the reasons set forth below, the court adopts the R&Rs, denies Herriott’s motions,
and grants defendants’ motion for summary judgment.

I. BACKGROUND
Herriott is an inmate within the South Carolina Department of Corrections
(“SCDC”). In this action, Herriott alleges that defendants violated his Eighth and
Fourteenth Amendment rights while he was housed in Lee Correctional Institution’s
Restricted Housing Unit by denying him indoor and outdoor recreation and exercise,
fresh air, and sunlight exposure. Herriott filed this action on March 4, 2019. Defendants
1

6:19-cv-00626-DCN

Date Filed 07/13/20

Entry Number 153

Page 2 of 8

filed a motion for summary judgment on March 10, 2020. ECF No. 127. On March 18.
2020, Herriott filed a motion for default judgment and a request for entry of default, ECF
Nos. 132-33, and on March 27, 2020, Herriott filed a motion for sanctions asking the
court to strike defendants’ motion for summary judgment or to stay the proceedings until
defendants produce the requested discovery. ECF No. 134. Defendants responded to the
motion for sanctions on April 10, 2020, ECF No. 135, and to the motion for default
judgment on April 22, 2020, ECF No. 138. Herriott filed a reply to his motion for
sanctions on April 17, 2020. ECF No. 137. On April 27, 2020, the magistrate judge
issued an R&R recommending that Herriott’s motion for default judgment, request for
entry of default, and motion for sanctions be denied. ECF No. 140. Herriott filed a reply
to his motion for default that was docketed on April 30, 2020, three days after the R&R
had been filed. ECF No. 142.1 Herriott then filed an objection to this R&R on May 11,
2020, ECF No. 143, and defendants replied on May 26, 2020, ECF No. 145. Herriott
filed an unauthorized sur-reply on June 3, 2020. ECF No. 149.
The magistrate judge entered another R&R on May 28, 2020 recommending that
defendants’motion for summary judgment be granted. ECF No. 147. Herriott filed
objections on June 8, 2020, ECF No. 150, and defendants replied on June 22, 2020, ECF
No. 152. Therefore, the objections to both R&Rs are ripe and ready for review.

'The deadline for Herriott’s reply brief was April 29, 2020, and SCDC mailroom
received Herriott’s reply on April 28, 2020, ECF No. 142-1, meaning that the reply brief
was timely filed. However, the R&R was issued prior to the court’s receipt of the reply
brief on April 30, meaning that the R&R did not consider the reply. Herriott did not
object to this; nevertheless, the court reviewed the reply and finds that its substance does
not dictate a different outcome than the one discussed below.

2

6:19-cv-00626-DCN

Date Filed 07/13/20

Entry Number 153

Page 3 of 8

II. STANDARD
The magistrate judge makes only a recommendation to the court. Mathews v.
Weber. 423 U.S. 261, 270 (1976). The recommendation carries no presumptive weight,
and the responsibility to make a final determination remains with the court. Id. at 270-71.
The court may “accept, reject, or modify, in whole or in part, the findings or
recommendations made by the magistrate judge ... or recommit the matter to the
magistrate judge with instructions.” 28 U.S.C. § 636(b)(1). The court is charged with
making a de novo determination of any portion of the R&R to which a specific objection
is made. Id. However, de novo review is unnecessary when a party makes general and
conclusory objections without directing a court’s attention to a specific error in the
magistrate judge’s proposed findings. Orpiano v. Johnson. 687 F.2d 44, 47 (4th Cir.
1982).
III. DISCUSSION
The court begins with the first R&R recommending that Herriott’s motions for
default judgment and sanctions be denied and then turns to the second R&R
recommending that the court grant defendants’ motion for summary judgment. Upon
review of Herriott’s objections, the court overrules them and adopts the R&Rs.
A. Motion for Default Judgment and Motion for Sanctions
Herriott filed motions for default judgment and for sanctions, arguing that
defendants failed to file an answer, respond to discovery requests, and file a dispositive
motion by the appropriate deadline. The R&R recommended denying these motions,
*

finding that defendants did file answers, Herriott did not serve any discovery requests on

3

6:19-cv-00626-DCN

Date Filed 07/13/20

Entry Number 153

Page 4 of 8

defendants, and defendants filed their motion for summary judgment on March 10, 2020,
which was the deadline provided for in the text order found at ECF No. 121.
Herriott first objects to the portion of the R&R that states that “[t]he only
remaining claims in this action are those against defendants Warden Joyner, Associate
Warden Tisdale, Major Ray, Captain Commander, and Lieutenant Greene for denial of
access to outside recreation, fresh air, and sunlight at Broad River Correctional
Institution.” ECF No. 140 at 1 (emphasis added). Herriott argues that those defendants
are former and present employees at Lee Correctional Institution, not at Broad River.
The R&R did misstate Herriott’s allegation—he alleges denial of access to outside
recreation, fresh air, and sunlight at Lee Correctional Institution, as recognized in a
previous R&R in this case. ECF No. 57 at 2. Therefore, the court now clarifies that
Herriott alleges that he was deprived of access to outside recreation, fresh air, and
sunlight at Lee Correctional Institution. However, this misstatement has no bearing on
the outcome of the motions. Next, Herriott “objects to the U.S. Magistrate [’s] admission
that is contrary to Heriott v. Stephen, 6:19-cv-750-DCN-KFM.” ECF No. 143 at 2. This
objection is too vague for the court afford it any meaningful review; therefore, the court
overrules the objection.
Finally, Herriott explains that he mailed a petition for certiorari to the United
States Supreme Court on September 26, 2019 in order to appeal the Fourth Circuit’s
decision on an interlocutory appeal in this case. Herriott filed a motion for a preliminary
injunction on March 21, 2019, ECF No. 12, which the court denied on April 11, 2019,
ECF No. 24. Herriott appealed that order to the Fourth Circuit, and the magistrate judge
stayed the case pending the appeal. The Fourth Circuit dismissed the appeal on July 19,

4

1

6:19-cv-00626-DCN

Date Filed 07/13/20

Entry Number 153

Page 5 of 8

2019 and issued its mandate on August 12, 2019. Herriott now argues that this court does
not have jurisdiction over this case while his petition for certiorari is pending. In
response, defendants argue that there is no record of a filed petition for certiorari,
defendants were never served with or received notice of a petition, Herriott never filed a
motion to stay the Fourth Circuit’s mandate or a motion to stay proceedings in this court,
and that the subject of the interlocutory appeal has no bearing on the merits of the issues
currently before the court.
Herriott submitted a response in reply to defendants’ reply. Although this filing is
procedurally improper, the court will briefly recount Herriott’s argument. Herriott
explains that on September 26, 2019, he gave instructions to Lieutenant Jackson, a
Restricted Housing Unit officer of Lieber Correctional Institution, to mail his certiorari
petition to the Supreme Court. Herriott states that he did not find out until January 8,
2020 that the Supreme Court never received his petition, and that he did not file a motion
to stay because he thought the Supreme Court had received his petition, making it
unnecessary to file a motion to stay.
Herriott’s argument that this court has no jurisdiction to consider these motions
due to his appeal has no merit. To be sure, “[t]he filing of a notice of appeal is an event
of jurisdictional significance—it confers jurisdiction on the court of appeals and divests
the district court of its control over those aspects of the case involved in the appeal.”
Griegs v. Provident Consumer Disc. Co., 459 U.S. 56, 58 (1982). However, that is only
true when filing an appeal with the court of appeals. There is no equivalent rule divesting

5

6:19-cv-00626-DCN

Date Filed 07/13/20

Entry Number 153

Page 6 of 8

a district court of jurisdiction when a petition for certiorari is filed with the Supreme
Court.
Moreover, Herriott appealed the court’s denial of a preliminary injunction,
meaning that it was deprived of jurisdiction only over the “aspects of the case involved in
the appeal.” Id. The issues currently before the court are unrelated to the preliminary
injunction. In addition, the Fourth Circuit issued its mandate on August 12, 2019, ECF
No. 52, which reinstated this court’s jurisdiction. Therefore, the court has jurisdiction
over this matter and can decide the issues currently before it.
The court acknowledges that Herriott was surprised to learn that the Supreme
Court did not receive his petition for certiorari and that Herriott did all that he could to
file his petition by providing it to a correctional officer to be mailed. However, even if
Herriott’s petition had been received by the Supreme Court, the district court still retains
jurisdiction of the case while the petition is pending, and a stay in the lower court
proceedings is not automatic when a party files a petition for certiorari. Instead, the party
who filed the petition must file a motion to stay and convince the court that (1) the
balance of hardships is in the party’s favor and (2) four Supreme Court justices would
likely vote to grant a writ of certiorari. New York Times Co. v. Jascalevich. 439 U.S.
1304, 1304 (1978). In other words, Herriott is not entitled to an automatic stay if he files
a petition for certiorari. As such, the court overrules Herriott’s objections, adopts the
R&R, and denies plaintiffs’ motions, ECF No. 132-134.
B. Motion for Summary Judgment
Defendants filed a motion for summary judgment, which the R&R recommends
that the court grant based on Herriott’s failure to exhaust his administrative remedies.

6

6:19-cv-00626-DCN

Date Filed 07/13/20

Entry Number 153

Page 7 of 8

Defendants submitted the affidavit of Sherman Anderson (“Anderson”), the Branch Chief
for the Inmate Grievance Branch, in which Anderson attests that the only grievance filed
by Herriott that raises an issue with denial of outdoor exercise was filed after Herriott had
commenced this lawsuit. ECF No. 127-3, f 13. Herriott first objects by arguing that the
motion for summary judgment is inappropriate, immaterial, and improper at this time and
that Herriott “has submitted on May 29, 2020, thatU.S. Magistrate, Honorable
McDonald have [sic] outrightly reviewed this case and previous cases ruled upon by
Honorable McDonald are erroneous in ruling.” ECF No. 150 at 1-2. Herriott argued in
his motion for sanctions that defendants’ motion for summary judgment should be
stricken. ECF No. 134 at 1. As discussed above, the magistrate judge recommending
denying that motion, and the court agrees with that recommendation. The court is
uncertain to what Herriott is referring when he discusses something that he submitted on
May 29, 2020; however, any argument that prior mlings by the magistrate judge are
erroneous have no bearing on the present matter.
Next, Herriott argues that this court is without jurisdiction to adjudicate this
matter due to the appeal of the preliminary injunction order to the Supreme Court. As
explained above, even if Herriott’s petition of certiorari had reached the Court, his
statement of law is incorrect. Finally, Herriott argues that “[t]he evidence that the
defendants have proffered in bad faith is immaterial and has not provided the truth nor
disclose to the Plaintiff any and all his production for discovery including any and all
requests to staff members and grievances.” ECF No. 150 at 2. Again, that argument was
addressed in the prior R&R, the magistrate judge found it to be unconvincing, and the
court agrees. Moreover, Herriot submits no evidence to doubt the veracity of Anderson’s

7

n

6:19-cv-00626-DCN

Date Filed 07/13/20

Entry Number 153

Page 8 of 8

affidavit. As such, the court overrules Herriott’s objections, adopts the R&R, and grants
defendants’ motion for summary judgment.
IV. CONCLUSION
For the foregoing reasons the court ADOPTS the R&Rs, DENIES Herriott’s
motions, and GRANTS defendants’ motion for summary judgment.
AND IT IS SO ORDERED.
!

DAVID C. NORTON
UNITED STATES DISTRICT JUDGE
July 13, 2020
Charleston, South Carolina

8

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 1 of 9

IN THE DISTRICT COURT OF THE UNITED STATES
FOR THE DISTRICT OF SOUTH CAROLINA
GREENVILLE DIVISION
Kevin Herriott,

)
)
)
)
)
)

Plaintiff,
vs.

Civil Action No. 6:19-626-DCN-KFM

REPORT OF MAGISTRATE JUDGE

Aaron Joyner, NFN Tisdale, NFN Ray, )
NFN Commander, and NFN Greene,
)
)
)

Defendants.

)

This matter is before the court on the defendants’ motion for summary
judgment (doc. 127). The plaintiff, a state prisoner proceeding pro se, seeks relief pursuant
to Title 42, United States Code, Section 1983. Pursuant to the provisions of Title 28,
United States Code, Section 636(b)(1)(B) and Local Civil Rule 73.02(B)(2)(d)(D.S.C.), this
magistrate judge is authorized to review all pretrial matters in cases filed under Section
1983 and submit findings and recommendations to the district court.

BACKGROUND
The plaintiff is an inmate at the South Carolina Department of Corrections
(“SCDC”), and over the last two years, he has been housed at different prisons within
SCDC, including Lee Correctional Institution (“Lee”).

On March 4, 2019, he filed a

complaint against various officers and employees at three SCDC prisons (see C.A. No.
6:19-cv-626, doc. 1). By order dated March 12, 2019, the initial case was severed into
three separate actions, each pertaining to the claims related to a particular prison, including
this case involving claims arising at Lee (doc. 1). The plaintiff filed a second amended
complaint on May 17,2019 (doc. 45). After the plaintiffs unsuccessful interlocutory appeal
(docs. 27, 52), the Honorable David C. Norton, United States District Judge, dismissed

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 2 of 9

some of the original defendants and some of the plaintiffs claims (doc. 65). Accordingly,
the only remaining claims in this action are those against the defendants Warden Joyner,
Associate Warden Tisdale, Major Ray, Captain Commander, and Lieutenant Greene for
denial of access to outside recreation, fresh air, and sunlight at Lee.
The plaintiff alleges in his second amended complaint that between April and
July, 2018, the defendants violated his Eighth and Fourteenth Amendments rights by
subjecting him to unconstitutional conditions of confinement while he was in Lee’s
Restricted Housing Unit (“RHU”), by denying him indoor and outdoor recreation and
exercise, fresh air, and sunlight exposure (doc. 45, pp. 8-12). He further alleges that he
filed an unsuccessful grievance while at Lee concerning these deprivations and that he
“completed” the grievance appeal process (id., p. 16). He alleges that as a result of these
conditions and the defendants’ indifference and inaction to them, he suffered physical and
mental injuries, and he seeks actual and punitive damages (id., p. 13).
On December 12, 2019, the defendants filed an answer denying that they
violated the plaintiffs rights and raising the affirmative defense of the plaintiffs failure to
exhaust his administrative remedies (doc. 86). The plaintiff filed a reply on January 13,
2020, claiming that he “had notified the responsible officials by way of a(n) grievance(s)
filed that simply vanished on several accounts” (doc. 101, p. 5).
On March 10, 2020, the defendants filed their motion for summary judgment
(doc. 127). By order filed March 11,2020, pursuant to Roseboro v. Garrison, 528 F.2d 309
(4th Cir. 1975), the plaintiff was advised of the summary judgment procedure and the
possible consequences if he failed to respond adequately and timely to the motion (doc.
128). The plaintiff filed a motion to strike the defendants’ motion on March 27, 2020 (doc.
134), to which the defendants filed a response in opposition on April 10, 2020 (doc. 135).
On April 27, 2020, the undersigned filed a report and recommendation that the plaintiffs

2

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 3 of 9

(

motion to strike be denied1 (doc. 140). On March 11,2020, the plaintiff’s deadline for filing
a response to the defendants’ motion for summary judgment was set for April 13, 2020
(doc. 128). Thereafter, this court issued a standing order that extended all deadlines in civil
cases by 21 days from the current deadline set (doc. 130).2 Accordingly, the plaintiff’s
deadline to file a response to the motion for summary judgment was extended until May 4,
2020. The plaintiff has failed to file a response.
In support of their motion for summary judgment, the defendants argue that
the plaintiff failed to exhaust his administrative remedies. They provide the affidavit of
Sherman Anderson, Chief of the Inmate Grievance Branch of SCDC’s Office of General
Counsel, who attests that SCDC records show that the plaintiff was housed at Lee from
October 31,2017, through July 27, 2018, when he was then transferred to SCDC’s Broad
River Correctional Institution and then later transferred to SCDC’s Kershaw Correctional
Institution (“Kershaw”) on November 13, 2018. However, he failed to file any grievance
regarding the lack of recreation, fresh air, and sunlight until March 28, 2019, while he was
housed in Kershaw (doc. 127-3, Anderson aff.

12, 13). In that grievance, the plaintiff

writes that he has not had recreation since March 2018, which dates back to the time he
was housed in Lee (doc. 127-3, p. 22). The grievance was processed and returned as
untimely. Mr. Anderson further testifies that the plaintiff’s official grievance records do not
show that he filed any grievance on this or any other issue during the period that he was
housed at Lee (doc. 127-3, Anderson aff.

14-15).

1This motion is pending.
2 The standing order was in response to the spread of COVID-19 (doc. 130).
3

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 4 of 9

APPLICABLE LAW AND ANALYSIS
Summary Judgment Standard
Federal Rule of Civil Procedure 56 states, as to a party who has moved for
summary judgment: “The court shall grant summary judgment if the movant shows that
there is no genuine dispute as to any material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). As to the first of these determinations, a fact is
deemed “material” if proof of its existence or nonexistence would affect the disposition of
the case under the applicable law. Anderson v. Liberty Lobby, Inc., All U.S. 242, 248
(1986). An issue of material fact is “genuine” if the evidence offered is such that a
reasonable jury might return a verdict for the non-movant. Id. at 257. In determining
whether a genuine issue has been raised, the court must construe all inferences and
ambiguities against the movant and in favor of the non-moving party. United States v.
Diebold, Inc., 369 U.S. 654, 655 (1962).
The party seeking summary judgment shoulders the initial burden of
demonstrating to the district court that there is no genuine issue of material fact. Celotex
Corp. v. Catrett, All U.S. 317, 325 (1986). Once the movant has made this threshold
demonstration, the non-moving party, to survive the motion for summary judgment, may not
rest on the allegations averred in his pleadings; rather, he must demonstrate that specific,
material facts exist that give rise to a genuine issue. Id. at 324. Under this standard, the
existence of a mere scintilla of evidence in support of the plaintiffs position is insufficient
to withstand the summary judgment motion. Anderson, All U.S. at 252.

Likewise,

conclusory allegations or denials, without more, are insufficient to preclude the granting of
the summary judgment motion. Id. at 248. “Only disputes over facts that might affect the
outcome of the suit under the governing law will properly preclude the entry of summary
judgment. Factual disputes that are irrelevant or unnecessary will not be counted.” Id.

A

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 5 of 9

Exhaustion
The Prison Litigation Reform Act (“PLRA”), Pub. L. No. 104-134, 110 Stat.
1321 (codified as amended at 42 U.S.C. § 1997e(a) (1996)), mandates, among other
things, that prisoners exhaust their administrative remedies prior to filing civil actions
concerning prison conditions under Section 1983 or any other federal law. See Jones v.
Bock, 549 U.S. 199, 211 (2007) (“There is no question that exhaustion is mandatory under
the PLRA and that unexhausted claims cannot be brought in court”). “[T]he PLRA's
exhaustion requirement is mandatory,” Anderson v. XYZ Corr. Health Servs., Inc., 407 F.3d
674, 677 (4th Cir. 2005), and “applies to all inmate suits about prison life, whether they
involve general circumstances or particular episodes, and whether they allege excessive
force or some other wrong.” Porter v. Nussle, 534 U.S. 516, 532 (2002)
The PLRA requires “proper exhaustion” of available administrative remedies
prior to filing suit. Woodford v. Ngo, 548 U.S. 81, 93-94 (2006). As the Supreme Court
noted, “[aggrieved parties may prefer not to exhaust administrative remedies for a variety
of reasons,” whether it be concerns about efficiency or “bad faith.” Id. at 89-90. This is
especially true in a prison context. Id. at 90 n.1. Nevertheless, “[p]roper exhaustion
demands compliance with an agency's deadlines and other critical procedural rules
because no adjudicative system can function effectively without imposing some orderly
structure on the course of its proceedings." Id. at 90-91.
“[A]n administrative remedy is not considered to have been available if a
prisoner, through no fault of his own, was prevented from availing himself of it.” Moore v.
Bennette, 517 F.3d 717, 725 (4th Cir. 2008). Thus, an administrative remedy is considered
unavailable when: (1) “it operates as a simple dead end—with officers unable or
consistently unwilling to provide any relief to aggrieved inmates”; (2) it is “so opaque that
it becomes, practically speaking, incapable of use”; or (3) “prison administrators thwart

5

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 6 of 9

/)

inmates from taking advantage of a grievance process through machination,
misrepresentation, or intimidation.” Ross v. Blake, 136 S. Ct. 1850, 1859-60 (2016).
SCDC’s administrative remedies process for prisoners is outlined in SCDC
Policy GA-01.12. This court may take judicial notice of this policy. Al-Haqq v. Bryant, No.
2:14-cv-0008-TMC-MGB, 2016 WL 769121, at *2 (D.S.C. Feb. 8, 2016) (citing Malik v.
Ward, No. 9:08-cv-01886, 2010 WL 936777, at *2 n.4 (D.S.C. Mar. 16, 2010)). The policy
provides in relevant part:
13.2 Inmates must make an effort to informally resolve a
grievance by submitting a Request to Staff Member Form to the
appropriate supervisor/staff within eight (8) working days of the
incident. However, in certain cases, informal resolution may not
be appropriate or possible.... If informal resolution is not
possible, the grievant will complete Form 10-5, Step 1, which
is located in common areas, i.e., living areas, libraries, etc. and
will place the form in a designated grievance drop box within
five (5) working days of the alleged incident.... All information
must be placed on SCDC Form 10-5, " Inmate Grievance
Form." An inmate will submit a grievance within the time frames
established in the policy.. ..
The grievance form must contain information about how, with
whom, and when attempts were made to resolve the problem
informally within eight (8) working days of the appropriate
supervisor's signature date on the SCDC Form 19-11," Inmate
Request To Staff Member" (RTSM). . ..
13.3 All grievances will be picked up on a daily basis, during
normal working hours, by an employee designated by the
Warden (not the IGC). All grievances will be numbered and
entered into the automated system (regardless of whether the
issue is grievable or non-grievable) within three (3) working
days by an employee designated by the Warden (not the IGC).
The employee designated by the Warden will give the
grievances to the IGC after the grievance has been entered
into the automated system. Upon receipt of a grievance, the
IGC will, within three (3) working days, complete the additional
text for the grievance into the CRT screen and enter the
grievance information in the grievance log book. The time
frame for responding to the grievance will begin once the text
for the grievance has been entered into the QMS system...........
6

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 7 of 9

13.5 The Warden will respond to the grievant in writing (in the
space provided on SCDC Form 10-5, Step 1) indicating in
detail the rationale for the decision rendered and any
recommended remedies. The grievant will also be informed of
his/her rights to appeal to the next level. The Warden will
respond to the grievant no later than 45 days from the date the
grievance was formally entered into the OMS system by the
IGC.. ..
13.7 Appeal Process: The grievant may appeal by completing
the SCDC Form 10-5a, Step 2 to the IGC within five (5)
calendar days of the receipt of he response by the grievant. .
. . The Inmate Grievance Branch will confirm receipt to the
appeal, conduct any further investigation necessary, prepare
a report, and present all available information to the
responsible official. The responsible official will render the final
decision on the grievance within 90 days from the date that the
IGC received the appeal of the Warden’s decision.. ..
SCDC Policy/Procedure, Inmate Grievance System, GA-01.12 §§ 13.2, 13.3, 13.5, 13.7
(May 12, 2014) available at http://www.doc.sc.gov/policy/policy.html.
The plaintiff clearly has not exhausted his administrative remedies. The
evidence before the court shows that he failed to file any administrative grievances for lack
of recreation and exercise, fresh air, and sunlight exposure at Lee until March 28, 2019,
approximately eight months after he was transferred from Lee. Moreover, after this lone
grievance was denied, the plaintiff failed to appeal it in accordance with SCDC’s grievance
policy. In any event, the plaintiff filed his initial complaint here on March 4,2019, more than
three weeks before he filed his grievance, well in violation of the PLRA’s pre-suit filing
requirements.
In his reply, the plaintiff appears to allege that he filed grievance(s) while at
Lee, but they “vanished,” suggesting that his exhaustion efforts were stymied by the
defendants (doc. 101, p. 5).

However, this allegation is wholly unsupported by the

evidence of record and is in direct contradiction to his earlier allegation in his second
amended complaint that his grievances at Lee were in fact denied and that he thereafter
“completed” the appeal process (doc. 45, p. 16). As the plaintiffs own allegations on
7

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 8 of 9

exhaustion are inconsistent, and as the defendants’ uncontradicted evidence establishes
that no genuine issue of material fact remains on the plaintiffs failure to exhaust his
administrative remedies, summary judgment should be granted.
CONCLUSION AND RECOMMENDATION
Now, therefore, based upon the foregoing,
IT IS HEREBY RECOMMENDED that the defendants’ motion for summary
judgment (doc. 127) be granted.
s/ Kevin F. McDonald
United States Magistrate Judge
May 28, 2020
Greenville, South Carolina

The attention of the parties is directed to the important notice on the following page.

8

6:19-cv-00626-DCN

Date Filed 05/28/20

Entry Number 147

Page 9 of 9

(

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this
Report and Recommendation with the District Judge. Objections must specifically identify
the portions of the Report and Recommendation to which objections are made and the
basis for such objections. “[I]n the absence of a timely filed objection, a district court need
not conduct a de novo review, but instead must ‘only satisfy itself that there is no clear error
on the face of the record in order to accept the recommendation.’” Diamond v. Colonial Life
& Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005) (quoting Fed. R. Civ. P. 72 advisory
committee’s note).
Specific written objections must be filed within fourteen (14) days of the date
of service of this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P.
72(b); see Fed. R. Civ. P. 6(a), (d). Filing by mail pursuant to Federal Rule of Civil
Procedure 5 may be accomplished by mailing objections to:
Robin L. Blume, Clerk
United States District Court
300 East Washington Street
Greenville, South Carolina 29601
Failure to timely file specific written objections to this Report and
Recommendation will result in waiver of the right to appeal from a judgment of the
District Court based upon such Recommendation. 28 U.S.C. § 636(b)(1); Thomas v.
Am, 474 U.S. 140 (1985); Wright v. Collins, 766 F.2d 841 (4th Cir. 1985); United States v.
Schronce, 727 F.2d 91 (4th Cir. 1984).

9

